<html>
<title> - KUPFER AND ONLEY NOMINATIONS</title>
<body><pre>[Senate Hearing 110-502]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 110-502
 
                      KUPFER AND ONLEY NOMINATIONS 

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                                   TO

CONSIDER THE NOMINATION OF JEFFREY F. KUPFER TO BE DEPUTY SECRETARY OF 
   ENERGY, AND KAMERAN L. ONLEY TO BE AN ASSISTANT SECRETARY OF THE 
                                INTERIOR

                               __________

                             APRIL 30, 2008


                       Printed for the use of the
               Committee on Energy and Natural Resources

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

44-449 PDF                       WASHINGTON : 2008 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 






























               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman

DANIEL K. AKAKA, Hawaii              PETE V. DOMENICI, New Mexico
BYRON L. DORGAN, North Dakota        LARRY E. CRAIG, Idaho
RON WYDEN, Oregon                    LISA MURKOWSKI, Alaska
TIM JOHNSON, South Dakota            RICHARD BURR, North Carolina
MARY L. LANDRIEU, Louisiana          JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           BOB CORKER, Tennessee
KEN SALAZAR, Colorado                JOHN BARRASSO, Wyoming
ROBERT MENENDEZ, New Jersey          JEFF SESSIONS, Alabama
BLANCHE L. LINCOLN, Arkansas         GORDON H. SMITH, Oregon
BERNARD SANDERS, Vermont             JIM BUNNING, Kentucky
JON TESTER, Montana                  MEL MARTINEZ, Florida

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
              Frank Macchiarola, Republican Staff Director
             Judith K. Pensabene, Republican Chief Counsel

































                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Bingaman, Hon. Jeff, U.S. Senator From New Mexico................     1
Domenici, Hon. Pete V., U.S. Senator From New Mexico.............     2
Kupfer, Jeffrey, Nominee for Deputy Secretary of Energy..........     3
Onley, Kameran L., Nominee for Assistant Secretary of the 
  Interior.......................................................     5

                                APPENDIX

Responses to additional questions................................    19


                      KUPFER AND ONLEY NOMINATIONS

                              ----------                              


                       WEDNESDAY, APRIL 30, 2008

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 3:36 p.m. in room 
SD-366, Dirksen Senate Office Building, Hon. Jeff Bingaman, 
chairman, presiding.

OPENING STATEMENT OF HON. JEFF BINGAMAN, U.S. SENATOR FROM NEW 
                             MEXICO

    The Chairman. Afternoon. The committee meets this afternoon 
to consider the nominations of Jeffrey F. Kupfer to be the 
Deputy Secretary of Energy and Kameran L. Onley to be an 
Assistant Secretary of Interior for Water and Science.
    Both nominees have held senior positions in their 
departments since 2006. Both are currently performing the 
duties of the offices to which they have been nominated. They 
are serving today in an acting capacity.
    Mr. Kupfer served as the Chief of Staff at the Department 
of Energy from October 2006 until he was named Acting Deputy 
Secretary following Clay Sells resignation earlier this month. 
Before coming to the Department of Energy, Mr. Kupfer held 
senior posts in the Executive Office of the President on the 
President's Advisory Panel on Federal tax reform and in the 
Department of the Treasury.
    Ms. Onley joined the Department of the Interior as 
Assistant Deputy Secretary in January 2006, was assigned the 
responsibilities of the Assistant Secretary for Water and 
Science last August and was named Acting Assistant Secretary 
for Water and Science earlier this month. Before coming to the 
Department of the Interior she served as the Associate Director 
for Environmental Policy at the President's Council on 
Environmental Quality. Before that she was the Associate 
Director for the Regulatory Studies Program at Mercatus Center. 
Am I pronouncing that right?
    Ms. Onley. Yes, that's right.
    The Chairman. Mercatus Center at George Mason University.
    We appreciate their willingness to serve in these important 
positions to which they've been nominated. We welcome the 
opportunity to consider their nominations. Let me call on 
Senator Domenici for any statement he has.

   STATEMENT OF HON. PETE V. DOMENICI, U.S. SENATOR FROM NEW 
                             MEXICO

    Senator Domenici. Thank you very much, Mr. Chairman. I'll 
be brief. First of all, I've met both candidates and worked 
with both of them heretofore. I'm pleased to have them here and 
to be part of their confirmation process.
    The two nominees that we're considering are for two very 
important positions within the Department of Energy and the 
Department of Interior. As No. 2 person at the Department of 
Energy, the Deputy Secretary is essentially the Chief Operating 
Officer charged with implementing all departmental policies. 
While not as sweeping in scope, the management challenges of 
the Assistant Secretary for Water and Science in the Department 
of Interior covers at least a third of the Department's 
responsibilities including the Bureau of Reclamation, an area 
of particular importance to those of us from the West.
    Unlike most nominees the two before us today, Mr. Chairman, 
already have considerable experience, as you've indicated 
within their respective departments. I'm encouraged that they 
will be able to provide a seamless transition from the 
excellent tenures of their predecessors to press for completion 
of the Administration's initiatives and those of the 
Secretaries.
    I want to thank you, Senator Bingaman for scheduling this 
hearing so quickly. Hopefully the Senate will likewise act 
expeditiously. I will help you in that respect, if you need 
help in trying to make sure the Senate expedites the 
confirmation. Thank you, Senator.
    The Chairman. Thank you very much. The rules of the 
committee, which apply to all nominees, require that they be 
sworn in connection with their testimony. So I'd ask if the two 
of you would stand and raise your right hand at this point.
    Do you solemnly swear that the testimony you're about to 
give to the Senate Committee on Energy and Natural Resources 
shall be the truth, the whole truth and nothing but the truth.
    Mr. Kupfer. I do.
    Ms. Onley. I do.
    The Chairman. Please be seated. Before you begin your 
statements I'll ask three questions and address them to each 
nominee before the committee today.
    No. 1, will you be available to appear before this 
committee and other congressional committees to represent 
departmental positions and to respond to issues of concern to 
the Congress?
    Mr. Kupfer.
    Mr. Kupfer. I will.
    The Chairman. Ms. Onley.
    Ms. Onley. I will.
    The Chairman. Second question, are you aware of any 
personal holdings, investments or interests that could 
constitute a conflict of interest or create the appearance of 
such a conflict should you be confirmed and assume the office 
to which you have been nominated by the President?
    Mr. Kupfer.
    Mr. Kupfer. Mr. Chairman, my investments, personal holdings 
and other interests have been reviewed both by myself and the 
appropriate ethics counselors within the Federal Government. 
I've taken appropriate action to avoid any conflicts of 
interest. There are no conflicts of interest or appearances 
thereof, to my knowledge.
    The Chairman. Ms. Onley.
    Ms. Onley. Sir, all my investments have been reviewed both 
by the ethics office and the department. They have been 
approved and there is no conflict.
    The Chairman. Let me ask a third question. Are you involved 
or do you have any assets that are held in a blind trust?
    Mr. Kupfer.
    Mr. Kupfer. No.
    The Chairman. Ms. Onley.
    Ms. Onley. No.
    The Chairman. Alright. At this point, our normal practice 
is allow nominees to introduce any family members that are with 
them. Mr. Kupfer, did you have anybody you wanted to introduce?
    Mr. Kupfer. I do, Mr. Chairman. I have here my wife, Shelly 
and my three children. The oldest is Danielle, Adam and Andrew.
    The Chairman. Good. We're glad to have them here.
    Senator Craig. Uncle Sam.
    [Laughter.]
    Mr. Kupfer. That's correct.
    The Chairman. Right. Ms. Onley, did you have any family 
members you wanted to introduce?
    Ms. Onley. Yes, my husband, Doug Onley.
    The Chairman. Nice to have you here. Thanks for coming.
    Alright. Let me recognize each of you to make your opening 
statement at this point. Then after that we'll have some 
questions. Did you have a particular order you wanted to 
proceed in?
    Mr. Kupfer, why don't you go right ahead, first.

 TESTIMONY OF JEFFREY KUPFER, NOMINEE FOR DEPUTY SECRETARY OF 
                             ENERGY

    Mr. Kupfer. Thank you, Mr. Chairman. Chairman Bingaman, 
Senator Domenici, Senator Craig, I'm honored to appear before 
you today as President Bush's nominee to be Deputy Secretary of 
Energy. I'm cognizant of the challenges that the Department 
faces. I appreciate the President's and Secretary Bodman's 
confidence in my abilities to meet those challenges. I would 
also like to thank the committee for moving so quickly to hold 
this hearing and to consider my nomination.
    I've already introduced members of my family. They have put 
up with some long hours and an unpredictable schedule during 
the past several years. Without their love and support, I would 
not be able to do any of this.
    I could also list the family members who have been role 
models for me, but in the interest of time I would just like to 
single out one individual. My grandfather, Joseph Stern, served 
in his local government for over 30 years. Among many other 
things, he taught me the merit of public service, the value of 
treating others with dignity and respect and the importance of 
doing the right thing.
    I have been fortunate to have had opportunities to serve 
this country in various parts of the Federal Government. I 
worked here in the Senate for two different committees, 
governmental affairs and finance and learned first hand the 
importance of this institution. As you mentioned I've also 
served in the Executive branch as a career lawyer at the 
Justice Department and as a political appointee at the Treasury 
Department, The White House and now at the Energy Department. 
Those positions have allowed me to see the operation of 
government from different perspectives to learn how to 
accomplish policy and management initiatives and to recognize 
the significant value of the Federal work force.
    For the last year and a half I've had the great privilege 
to serve as Secretary Bodman's Chief of Staff. In this capacity 
I've become familiar with a wide variety of critical issues 
facing the Department. These issues, all of which are well 
known to members of this committee, include developing clean, 
affordable and efficient energy, ensuring America's nuclear 
security, supporting scientific discovery and innovation and 
safely conducting environmental clean up of our country's cold 
war legacy.
    If confirmed I would continue to work with Secretary Bodman 
to ensure that these diverse responsibilities are managed 
effectively. The Deputy functions as the Department's Chief 
Operating Officer. The Secretary has set high standards for our 
Department. My job would be to make sure that the senior 
leadership and others in the Department have clear objectives, 
have the support they need to accomplish those objectives and 
are held accountable for producing results.
    I recognize that the end of this Administration is coming 
quickly, less than 9 months away. That reality infuses all of 
us at the Department with a sense of urgency. We have a limited 
time to accomplish our goals and institutionalize the changes 
that have been made in the Department. Our overarching mission 
is to leave the Department in better shape than when we 
arrived. To make sure the Department is sound footing to meet 
the challenges ahead.
    Finally I would like to thank you, Mr. Chairman and Senator 
Domenici for the close bipartisan working relationship that the 
Department has had with the committee throughout Secretary 
Bodman's tenure. If confirmed as Deputy Secretary, I will look 
forward to continuing that important partnership. Mr. Chairman, 
that concludes my prepared statement. Thank you.
    [The prepared statement of Mr. Kupfer follows:]
  Prepared Statement of Jeffrey Kupfer, Nominee for Deputy Secretary 
                               of Energy
    Chairman Bingaman, Senator Domenici, and members of the Committee, 
I am honored to appear before you today as President Bush's nominee to 
be Deputy Secretary of Energy. I am cognizant of the challenges that 
the Department faces and I appreciate the President's and Secretary 
Bodman's confidence in my abilities to meet those challenges. I would 
also like to thank the Committee for moving so quickly to hold this 
hearing and to consider my nomination.
    Before I proceed further, I would like to introduce my wife, 
Shelly, and our three children: Danielle, Adam, and Andrew. They have 
put up with some long hours and an unpredictable schedule during the 
past several years--and without their love and support, I would not be 
able to do any of this. I could also list the family members who have 
been role models for me, but in the interest of time, I would just like 
to single out one individual. My grandfather, Joseph Stern, served in 
his local government for over 30 years, and among many other things, he 
taught me the merit of public service, the value of treating others 
with dignity and respect, and the importance of doing the right thing.
    I have been fortunate to have had opportunities to serve this 
country in various parts of the federal government. I worked here in 
the Senate for two different committees--Governmental Affairs and 
Finance--and learned firsthand the importance of this institution.
    I have also served in the executive branch--as a career lawyer at 
the Justice Department, and as a political appointee at the Treasury 
Department, the White House, and now at the Energy Department. Those 
positions have allowed me to see the operation of government from 
different perspectives--to learn how to accomplish policy and 
management initiatives--and to recognize the significant value of the 
federal workforce.
    For the last year and a half, I have had the great privilege to 
serve as Secretary Bodman's Chief of Staff. In this capacity, I have 
become familiar with a wide array of critical issues facing the 
Department. These issues--all of which are well-known to members of 
this Committee--include developing clean, renewable and efficient 
energy, ensuring America's nuclear security, supporting scientific 
discovery and innovation, and safely conducting the environmental 
cleanup of our country's cold war legacy.
    If confirmed, I would continue to work with Secretary Bodman to 
ensure that these diverse responsibilities are managed effectively. The 
Deputy Secretary functions as the Department's Chief Operating Officer. 
The Secretary has set high standards for our Department--and my job 
would be to make sure that the senior leadership and others in the 
Department have clear objectives, have the support they need to 
accomplish those objectives, and are held accountable for producing 
results.
    I recognize that the end of this Administration is coming quickly--
less than nine months away. That reality infuses all of us at the 
Department with a sense of urgency. We have a limited time to 
accomplish our goals and institutionalize the changes that we have made 
in the Department. Our overarching mission is to leave the Department 
in better shape than when we arrived.
    Finally, I would like to thank you, Mr. Chairman, and Senator 
Domenici for the close bipartisan working relationship that the 
Department has had with the Committee throughout Secretary Bodman's 
tenure. If confirmed as Deputy Secretary, I will look forward to 
continuing that important partnership.
    Mr. Chairman, that concludes my prepared statement. I would be 
happy to answer any questions at this time.

    The Chairman. Thank you very much. Ms. Onley, go right 
ahead.

TESTIMONY OF KAMERAN L. ONLEY, NOMINEE FOR ASSISTANT SECRETARY 
                        OF THE INTERIOR

    Ms. Onley. Thank you, Mr. Chairman, Senator Domenici, 
Senator Craig. It really is an honor to be here today as the 
President's nominee for the Assistant Secretary of Water and 
Science at the Department of Interior. President Bush and 
Secretary Kempthorne have given me the highest complement by 
nominating me for this position.
    I appreciate the fact you allowed me to introduce my 
husband. We were married my second year at The White House in 
2002. He has been a great friend and support to me during the 
past years of my service.
    I'd also like to thank the committee for inviting us to 
bring our brand new baby girl with us here today. But we opted 
to spare everyone her spontaneous bursts of enthusiasm. It's 
music to my ears, but not necessarily to everybody else's. So, 
but thank you.
    A little bit about my background. I was born and raised in 
Seattle. I consider the Evergreen State my home even though 
I've been away for almost 15 years now. It was during the 
family camping trips on the Sauk River and the Cascade 
Mountains that I developed my passion for the environment. I 
feel fortunate to have been able to parley my personal passion 
into a career.
    My formal education consists of a bachelor's in economics 
with a minor in biology from Seattle University. Master's in 
Agricultural Economics from Clemson University. I was in my 
junior year at Seattle U when I realized the languages between 
the fields of economics and biology. Both are studies of 
systems, human and animal and both provide ways for 
understanding how complex systems interact and evolve. These 
insights that have come from both of these fields can help to 
inform and improve public policy.
    Since graduate school I've worked in varying roles in 
public policy, as a research assistant at the Texas Institute 
for Applied Environmental Research. I worked with the dairy 
industry in rural Texas to address water quality issues. As a 
research assistant at the Mercatus Center, the position I held 
before joining the Administration, I analyzed the impacts of 
Federal regulation on the public. I also worked as a program 
officer for the Charles G. Koch Foundation where I experienced 
first hand how the non-profit sector plays in a crucial role in 
public policy.
    For the last six, almost 7 years, I've had a privilege to 
serve the public as a member of the Bush Administration. I 
joined The White House Council on Environmental Quality in July 
of 2001. While there I focused most of my time there on oceans 
and coastal issues.
    I entered the Department of Interior in January of '06 as 
Assistant Deputy Secretary where I continued the ocean and 
coastal work and also took on the role of the Chair of the 
Everglades Task Force. My work as Chair of the Everglades Task 
Force has required me to build consensus with multiple 
partners. Federal, State, local governments, Native American 
governments and the private sector in order to move restoration 
goals forward.
    My professional experience has provided me with the insight 
into a complex interface between environmental, economic and 
cultural merit. I understand the management challenges that 
result from this complexity. If confirmed I am committed to 
bringing the same collaborative problem solving focus to my new 
position within DOI.
    In July of last year as you mentioned I assumed the roles 
and responsibility of the Acting Assistant Secretary for Water 
and Science. During this short time I have developed an even 
greater appreciation for the complexity of water issues in the 
West and the necessity of applying sound science in the public 
interest. I have found that both Reclamation and the U.S. 
Geological Survey are committed to identifying new and better 
approaches to deal with water challenges facing our Nation.
    Secretary Kempthorne has outlined the Water for America 
Initiative to ensure that communities have reliable water 
supplies for the 21st century. As we can see from watching the 
evening news over the last year, water scarcity is no longer a 
problem for the arid west. It's a problem for the Nation.
    Through this Water for America Initiative the Bureau of 
Reclamation and the U.S. Geological Survey will leverage 
information, technology, local and State partnerships to help 
communities secure reliable water supplies. If confirmed I will 
work with this committee on implementing legislation to make 
this Initiative a success. If confirmed it will be an honor to 
work with the U.S. Geologic Survey, the Nation's premier 
science agency. The USGS provides reliable information, 
scientific products for natural resource managers, emergency 
response organizations, land use planners, decisionmakers at 
all levels of government. Its expertise ranges in all fields 
from recreational hiking and fishing to dam operations, 
earthquake and volcano predictions.
    Finally I share the commitment of the President and 
Secretary Kempthorne to the conservation of our natural 
resources. I know from personal experience that broad 
consultation produces better decisions that transparency and 
the deliberative process, including good communication, avoids 
needless conflicts. That cooperation is preferable to and can 
often head off litigation.
    I pledge that if confirmed I will consult with you on 
issues of interest to this committee. I will communicate with 
your constituents. I will search for cooperative solutions to 
the complex issues that would fall under my ambit.
    Thank you for the opportunity to appear before you today.
    [The prepared statement of Ms. Onley follows:]
Prepared Statement of Kameran L. Onley, Nominee for Assistant Secretary 
                            of the Interior
    Thank you, Mr. Chairman, Senator Domenici, and members of the 
committee. It is an honor and privilege to appear before you today as 
the President's nominee for the Assistant Secretary for Water and 
Science at the Department of the Interior. I am both humbled and 
honored that President Bush and Secretary Kempthorne have recommended 
me for this position.
    I appreciate the fact that my husband Doug can be here with me 
today. We were married during my second year at the White House Council 
on Environmental Quality and he has been such a great friend and 
support to me during these past years of public service. I'd also like 
to thank the committee for inviting our new baby girl to join me here 
today, but my husband and I opted to spare everyone her spontaneous 
bursts of enthusiasm; it might be music to my ears, but I can't promise 
everyone would see it that way.
    A little bit about my background. I was born and raised in Seattle, 
Washington and still consider the ``Evergreen State'' home. I am the 
only grandchild of ten who has left the state and quite frankly no one 
in my family can understand why. It was during the family camping trips 
along the Sauk River in the Cascade Mountains that I first developed my 
passion for the environment and I feel fortunate to have been able to 
parlay my passion into my professional life.
    My formal education consists of a B.A. in Economics with a minor in 
Biology from Seattle University and an M.S. in Agricultural Economics 
from Clemson University. I was in my junior year at Seattle University 
when I realized the linkages between the fields of economics and 
biology--both are studies of systems--human and animal--and both 
provide ways of understanding how complex systems interact and evolve. 
The insights that have come from both of these fields can help to 
inform and improve public policy.
    Since graduate school I have worked in varying roles in public 
policy. As a Research Assistant at the Texas Institute for Applied 
Environmental Research, I worked with the dairy industry in rural Texas 
to address water quality issues; as Research Assistant at The Mercatus 
Center--the position I held before joining the Administration--I 
analyzed the impacts of federal regulations on the public. I also 
worked as a Program Officer for the Charles G. Koch Foundation, where I 
experienced first-hand how the non-profit sector plays a crucial role 
in generating public policy.
    For the last six, almost seven, years I have had the privilege to 
serve the public as a member of the Bush Administration. I joined the 
White House Council on Environmental Quality in July, 2001, where I 
focused the majority of my time on ocean and coastal policy. Most 
notably I was responsible for leading the interagency group in the 
development of the President's ``U.S. Ocean Action Plan.'' I entered 
the Department of the Interior in January 2006 as Assistant Deputy 
Secretary, where I have continued my work on ocean and coastal issues 
and serve as the Secretary's principal policy advisor on Everglades 
restoration. My work chairing the South Florida Ecosystem Restoration 
Task Force has required me to build consensus with all partners, 
federal, state, local and Native American governments, and the private 
sector, to advance restoration goals.
    My professional experience has provided me with the insight into 
the complex interface of environmental, economic, and cultural merit. I 
understand the management challenges that result from this complexity 
and, if confirmed, I am committed to bringing the same collaborative 
problem-solving focus to a new position within DOI.
    In July of last year, I assumed the responsibilities of the Acting 
Assistant Secretary for Water and Science, including overseeing the 
Bureau of Reclamation and the U.S. Geological Survey. During this short 
time, I have developed an even greater appreciation for the complexity 
of water issues in the West and the necessity of employing sound 
science in the public interest.
    I have found that both Reclamation and the U.S. Geological Survey 
are committed to identifying new and better approaches to deal with the 
water challenges facing our nation. Secretary Kempthorne has outlined 
the ``Water for America Initiative'' to ensure that communities have 
reliable water supplies for the 21st century. Last year, the National 
Science and Technology Council reported that: ``Abundant supplies of 
clean, fresh water can no longer be taken for granted.'' As we can see 
from watching the evening news over the last year, water scarcity is no 
longer just a problem for the arid West--it is a problem for the 
Nation. We are seeing prolonged droughts and water conflicts in areas 
such as the Southeast, where people are used to having unlimited water. 
Through this Water for America Initiative, the Bureau of Reclamation 
and the U.S. Geological Survey will leverage information, technology 
and local and state partnerships to help communities secure reliable 
water supplies. If confirmed, I will work with the Committee on 
implementing legislation to make this initiative a success.
    If confirmed, it will be an honor to work with the U.S. Geological 
Survey, the Nation's premier science agency. The U.S. Geological Survey 
provides reliable information and scientific products for natural 
resource managers, emergency response organizations, land use planners, 
decision-makers at all levels of government, and citizens in all walks 
of life. USGS's broad spectrum of scientific expertise includes 
geography, geology, hydrology, and biology, and its products inform a 
range of activities from recreational hiking and fishing to dam 
operations and earthquake and volcano prediction. USGS science helps 
the Department and others manage resources in cost effective and 
environmentally sound ways.
    Finally, I share the commitment of the President and Secretary 
Kempthorne to conservation of our natural resources. I know from 
personal experience that broad consultation produces better decisions, 
that transparency in the deliberative process, including good 
communication, avoids needless conflicts, and that cooperation is 
preferable to and often can head off litigation. I pledge that if 
confirmed, I will consult with you on issues that are of interest to 
this Committee, I will communicate with your constituents, and I will 
search for cooperative solutions to the complex issues that would fall 
within my ambit.
    Thank you for the opportunity to appear before you today.

    The Chairman. Thank you very much for your statement. Thank 
you both for your statements. Let me ask a few questions and 
then defer to my colleague Senator Domenici and then Senator 
Craig.
    First, we welcome Secretary Bodman and we think his 
presence is a strong endorsement of your nomination which I 
know he is responsible for making. So we very much appreciate 
him being here. There's also a letter that Senator Arlen 
Specter has sent to myself and Senator Domenici urging prompt 
consideration of your nomination. We will include that in the 
record of this hearing as well and take that into account.
    [The information referred to follows:]

                                       U.S. Senate,
                                     State of Pennsylvania,
                                    Washington, DC, April 10, 2008.
Hon. Jeff Bingaman,
Chairman, Committee on Energy and Natural Resources, U.S. Senate, 
        Dirksen Senate Office Building, Washington, DC.
Hon. Pete Domenici,
Ranking Member, Committee on Energy and Natural Resources, U.S. Senate, 
        Dirksen Senate Office Building, Washington, DC.
    Dear Chairman Bingaman and Ranking Member Domenici: I am writing to 
urge prompt consideration of Jeffrey F. Kupfer, of Maryland, whose 
nomination to he Deputy Secretary of the Department of Energy has been 
pending before the Energy and Natural Resources Committee since April 
2, 2008.
    A native of Pittsburgh, Pennsylvania, Mr. Kupfer graduated from 
Yale College and Harvard Law School. His excellent academic credentials 
have served him well in his various positions within this 
Administration. Most recently, Mr. Kupfer served as Chief of Staff and 
Acting Deputy Secretary of the Department of Energy. Prior to this, he 
served as Special Assistant to the President for Economic Policy. 
Earlier in his career, he served as Deputy Chief of Staff and Executive 
Secretary at the Department of the Treasury.
    Additionally, Mr. Kupfer has extensive Senate experience having 
served as counsel for the Finance Committee and the Government Affairs 
Committee. He was also a trial attorney in the U.S. Department of 
Justice's Tax Division and clerk for Chief Judge Thomas P. Griesa in 
the U.S. District Court for the Southern District of New York.
    Accordingly, as it appears that Mr. Kupfer is well qualified for 
this new appointment, I request swift action by the Committee on his 
nomination to avoid a lengthy vacancy at the Department of Energy.
    Thank you for your attention to this matter.
    My Best.
            Sincerely,
                                             Arlen Specter,
                                                           Senator.

    The Chairman. One of the issues that's concerned me, 
frankly, is I think the Department of Energy, which was 
established 31 years ago, clearly has a major role in support 
of energy research development and deployment. But most of the 
regulatory tools that are involved with energy policy seem to 
be located elsewhere or many of them do. I'm specifically 
thinking about the Commodity Futures Trading Commission and the 
Federal Trade Commission and the Justice Department.
    I guess I'd be interested in any general comments you have 
about what role you think the Department of Energy should play 
beyond the traditional research and development role and the 
role of managing the strategic petroleum reserve to ensure 
adequate and reliable energy supplies at reasonable prices.
    Mr. Kupfer. Mr. Chairman, that's a very involved question 
that I'm not sure I can do justice to right here. But let me 
offer a few thoughts generally on the Department's mission and 
some comments on what you said.
    I think there's no question that the Department is and 
should continue to remain the government's premier science and 
technology agency. We have our network of 17 national 
laboratories around the country. With that existing 
infrastructure and with the world class resources that we have 
there, I think it's very important that that base continues.
    As part of that, trying to make sure that advancements and 
developments in those laboratories make it to the marketplace 
and to the private sector as quickly as possible through 
technology transfer and other things that we can do are very 
important for us to continue. I also think that the Department 
plays and should continue to play a very important policy role 
in the ongoing discussion of energy policy, energy security in 
this country and that ranges from identifying priorities for 
the country to look at. Whether that's carbon capture and 
sequestration or nuclear energy efficiency to also being the 
platform or someone say the ``bully pulpit'' for discussing 
those energy policies with both the domestic audience and in 
the international sphere where we routinely interact with our 
colleagues from around the world and discuss the U.S. energy 
situation.
    I think it's clear that there's many interconnections 
between different agencies in the Federal Government and people 
are realizing now that talking about climate change, for 
instance, without talking about energy security is something 
that doesn't make any sense. That those two things go together. 
Similarly with biofuels, the interaction between the Department 
and the Agriculture Department is very important.
    You talked about getting adequate supply of energy at 
reasonable prices and the markets that we have out there. I 
think once again it's an area where a number of different 
agencies have evolved to have some role in those markets. You 
mentioned them. It's the CFTC, FERC and DOJ and others.
    Especially as the market gets more complex, which it 
clearly is during the last few years. I think it's reasonable 
for us to look at whether that current line up of 
responsibilities in the government continues to serve the 
government in the most effective way that it can. So, I do 
think it's something that there's a lot of interconnections 
here and that the Department should continue to look at. I'd 
like to work with the committee in order to further elaborate 
on that.
    The Chairman. I'm about out of time. Let me ask one other 
question though. You mentioned cap and trade and greenhouse gas 
emissions. The legislation that the Majority Leader has 
indicated he's bringing to the floor, the Lieberman-Warner 
bill, proposes to vest far reaching new authority over energy 
production and use to the EPA and various new efficiency boards 
and Credit Corporation.
    Should the Department of Energy be playing a role in that 
that it's not supposed to be playing, as it currently stands in 
your view?
    Mr. Kupfer. As you know, Mr. Chairman, we have serious 
concerns with the Warner-Lieberman proposal. So putting aside 
that bill itself, I'd comment on the Department's role in 
climate legislation generally. I do think that the Energy 
Department should play a significant role.
    The interplay between environmental policy and energy 
security is vitally important and making sure that any 
environmental concerns are balanced with the realities of our 
energy situation, both in terms of technology and also the 
policy are very important. As the Administration has looked at 
this issue and including the RFS proposal last year, the 20 and 
10, we've tried to make it clear that any sort of adjustment of 
goals or waivers or circuit breaker type mechanisms are things 
where the Department of Energy should have a voice in making 
those judgments. It's simply not an environmental regulatory 
call.
    Two other quick points on that is one, I do think that 
from--to the extent that there's efficiency codes and standards 
which are included in that bill. I haven't reviewed all of 
them. The Department has played a significant role in 
efficiency. We have the technology that's been developed to 
deal with a variety of the efficiency improvements. I think we 
should continue to play a significant role.
    Finally, as you know the Energy Information 
Administration's statistical arm of the Department has been 
collecting data on energy usage over many years and to the 
extent that that could be leveraged and built upon, it seems to 
be one of the more effective ways to deal with that issue. So 
all in all I would say the Department should play a very 
significant role.
    The Chairman. Senator Domenici.
    Senator Domenici. Thank you very much, Mr. Chairman. Mr. 
Kupfer, are you aware that the Congressional Budget Office has 
rescored the President's budget request that will require the 
Energy and Water Subcommittee to find an additional $355 
million to cover the cost of title 17 Loan Guarantee Programs. 
This interpretation, in my opinion, and many around me, is 
inconsistent with OMB's estimate, EPACT, and the GAO legal 
review. I believe CBO has made a significant error in 
developing its assumptions and it will result in delaying the 
deployment of critical clean energy technologies.
    My first question is will you make sure that the Department 
and OMB will together work to convince the CBO that they've 
made a mistake and the Department's credit risk models are 
accurate and will protect the taxpayer?
    Mr. Kupfer. The short answer to that, Senator, is yes. I am 
aware of the issue. The program as it was spelled out in EPACT 
was designed to be self funding and that the credit subsidy 
models should, in the aggregate account, for any losses, 
potential losses that the Loan Guarantee Program would have.
    We believe that the credit model that we've designed does 
that. We will commit to working with OMB to make that case to 
CBO.
    Senator Domenici. Thank you for acknowledging that's what 
the new law provided in title 17. There's no question any 
reading of it provided for the authority from your Department 
to do it. If you did it a certain way it's supposed to cost the 
government nothing.
    My second question is in the event you are unable to 
convince CBO to change their assumptions will you make every 
effort to see to it that OMB provides adequate resources to 
cover the credit subsidy cost? In other words will you inform 
and press OMB to make up for the loss and the cut that we'll 
have to take because of CBO's interpretation?
    Mr. Kupfer. I will. The Loan Guarantee Program is a very 
important program. It's essential for what we're trying to do. 
Making sure it works effectively is very important for us.
    Senator Domenici. It's important to you?
    Mr. Kupfer. Yes, sir.
    Senator Domenici. The Secretary, he's worked very hard to 
get it done and especially it's part of the nuclear program. 
Not exclusively, but it technically is part of that. He'd like 
to see it happen to not be charged a fee when there's no fee. 
I'm sure he would testify to that if he were here.
    Mr. Kupfer. I am sure he would sir.
    Senator Domenici. The NNSA Advance Computing Program has 
made several errors, in my opinion, in its computing platform 
deployment strategy, including the acquisition strategy for 
nearly $290 million Sequoia Platform. My question is will you 
commit to finding a more balanced deployment strategy that 
increases computing capacity in all the national laboratories, 
all three and will commit to have the Sequoia Acquisition peer 
reviewed against other proposed computing platforms?
    Mr. Kupfer. Mr. Chairman, I understand from NNSA that is 
part of a complex transformation they are looking at making 
sure that the computer operations around the country are 
efficient and that each laboratory has sufficient operations. 
I'm told that they have done some technical review on their 
computer decisions. But I commit to you that I will talk to Tom 
D'Agistino, the Administrator of NNSA and others in the 
Department and that we will certainly explore the possibility 
of doing additional peer review on that program.
    Senator Domenici. I thank you for that. I believe our 
current policy for a once through nuclear fuel cycle is short 
sighted and is inadequate to address the challenges presented 
by global climate change and domestic energy security that 
require increase use of nuclear power. However, the advanced 
recycling and technology being deployed under the Department's 
nuclear fuel cycle under their research programs will not be 
ready for commercial implementation for almost 20 years or even 
more at the current funding levels.
    What is the best way to maintain the programmatic and 
funding stability necessary to realize the vision of a 
sustainable nuclear fuel cycle over such a long period of time?
    Mr. Kupfer. We do have our global nuclear energy 
partnership. That program, which is a longer term way of making 
sure we have a reliable fuel cycle and nonproliferation 
resistant manner. We've been successful with that in signing up 
21 countries for the global side of things.
    In the intermediate term, the discussion about 
reprocessing, I think, is a useful discussion especially as we 
look at the expansion of nuclear power. Making sure that we get 
the most value we can out the fuel that's used. Making sure 
that we try to deal with the waste problem as sufficiently as 
possible, is something we are certainly exploring and will 
continue to do so. We'd like to work with you on that issue.
    Senator Domenici. Thank you for your answer. I think you 
understand the issue very well. One program could take a very 
long period of time and we might have a program underneath it 
that could start our recycling long before that if we're 
willing to look at it carefully and proceed. That's what you're 
saying. You will at least look at it.
    Mr. Kupfer. Yes, sir.
    Senator Domenici. Thank you very much. One last one on 
uranium sales and then I'll yield, Mr. Chairman. I'm delighted 
with the resurgence of nuclear power, as I hope you are, in our 
country and apparently around the world. With applications for 
15 new power reactors filed and another 19 expected by the NRC 
in the next couple of years, we have made an excellent start in 
the resurgence.
    This has also created a resurgence in the uranium mining 
and the enrichment industry. However, the domestic uranium 
mining and enrichment industries remain very fragile. How does 
the Department plan to work with industry to manage future 
sales of the Department's uranium stocks to avoid the type of 
market disruptions that these sales have caused in the past? I 
assume you're aware of the contention that I'm speaking of.
    Mr. Kupfer. I am, sir. We have tried to be sensitive to the 
concerns that you've raised. The Department put out a uranium 
sales policy statement in March of this year where we tried to 
lay out the framework and some of the principles that we would 
follow in doing any specific sales for uranium. Some of those 
principles were that we wanted to make sure whatever we did 
left the Department and the country with sufficient stock piles 
of uranium, that we protected the national security of the 
country and also that whatever we did would be consistent and 
supportive with the maintenance of a strong domestic uranium 
industry and domestic nuclear industry.
    So we have set some parameters and certain thresholds where 
we have pledged not to put more than that amount of uranium 
into the marketplace. As we go forward with any specific ideas 
we'd certainly be very sensitive to that.
    Senator Domenici. In essence what I'm saying is it looks 
very easy when you have a problem with supply or some problem 
of disruption or inflation to say, well, we'll take care of it. 
We own a lot of uranium, which the Federal Government does. But 
obviously we have found in the past that when we intervened and 
dumped the government's uranium, it looked real nice for the 
next short term, but the long term, it messed things up. 
Because it destroyed the markets, I mean the production side 
and when you were ready there was none left.
    You don't have uranium forever. So you have to be very 
careful when you make it, that kind of decision. All I'm doing 
is making sure you understand it and you will be careful.
    Mr. Kupfer. We will, sir.
    Senator Domenici. Thank you very much. I have questions of 
you, but I'll wait for my second round. Thank you, Mr. 
Chairman.
    The Chairman. Thank you.
    Senator Craig.
    Senator Craig. Thank you very much, Mr. Chairman. I think 
both the Chairman and Ranking Member Domenici have been pretty 
thorough with you. So with all of that in mind and I share 
their concerns as we move forward with new energy technology, 
especially in the nuclear field, but in all of the other 
technologies that are out there and burgeoning in the market.
    Let me invite you to come to the Idaho National Laboratory 
and spend some time with us and see what that laboratory is 
doing as the lead nuclear lab for the Nation and some of the 
new technologies that are beginning to play there that, in the 
long term, we can have a positive benefit. So we'll look 
forward to that visit. Shall we pick a date?
    [Laughter.]
    Mr. Kupfer. That would be fine. I'm aware of all the 
important things we do out there. It is one of the places that 
I have not been and one that I plan to go to.
    Senator Craig. That's right. Spring is alive on the high 
deserts of Idaho. So it's warming up. So it will be a much more 
pleasant time.
    Mr. Kupfer. Understood.
    Senator Craig. So I highly recommend it. I've already 
chatted with Mrs. Onley. We've made the determination, Pete, 
that she understands salt water, but more importantly, she has 
an appreciation for fresh water. I wanted to make sure of that 
because I certainly did not want to oppose her nomination.
    I looked at her portfolio and all I could see was salt. We 
live in a freshwater environment and a scare water environment 
in the Great Basin West. I think Senator Domenici and I and 
Senator Bingaman appreciate that more so than most. When you 
live in high desert environments the value of that commodity is 
extreme and scarce.
    So let me ask you this question because I know that you 
mentioned or others have mentioned Senator Kempthorne's Water 
for America Initiative. Tell me a little about that. What you 
see it to be and what it might be able to accomplish in the 
near term.
    Ms. Onley. We are proposing in Water for America Initiative 
one thing is a census, a water census for the United States 
something that has not been done in the country for 30 years. 
We're also looking at in that as grants program to work with 
more State and locals on partnerships for conservation and for 
other measures, desalination, other things that can help us 
plan for the future. We're looking into including in the 
Initiative are basin wide studies so we can better understand 
the challenges we may face in the future. Those are just a few.
    Senator Craig. One of the things that we're exploring now 
and the Bureau of Rec. is doing more of it and others. It's 
simply a reality that we face here with the need for investment 
in our water infrastructure both in old systems and new 
capacity and old and new capacity and old systems and new 
systems. The Federal Government simply doesn't have the 
resources to meet those demands in a way that we did 
historically in the early days of the West.
    There's also a reality. The West is a developed place 
today. While it's populating rapidly and we're going to see 
need for adjustments and change in water allocation. The 
reality is there's a wealth out there that properly channeled 
coupled with both public and private partnerships, I think can 
accomplish a good deal more.
    We've discussed that at DOE. We looked at old models where 
the Federal Government paid for everything. That day has past. 
We've got to move outside that model and begin to partnership. 
We're starting to think about it and do those kinds of things.
    What do you see or how do you look at that vision as it 
relates to how a Federal-private partnership works and the 
opportunities to meet these water challenges beyond just the 
ability to hand out a grant here or there with very limited 
resources and keeping a level of expectation out there that the 
government may be doing something for you in the future when in 
fact, the budget will never come?
    Ms. Onley. As you are well aware, the way Reclamation works 
is our operation and maintenance of those facilities are paid 
by user groups. So there is a private-public partnership there. 
We're going to need to, as we look at, I think it was 2 weeks 
ago, the Commissioner testified on aging infrastructure of our 
Reclamation assets and this is a concern for the Nation.
    I just wanted, you know, I understand that the age of an 
asset is not necessarily the only determination. You really 
have to look at how well the facility has been kept up and look 
at other factors to make sure that it--to assess what is needed 
in order to supply for the next generation. We have a lot of 
tools. One we were looking at which is the loan guarantee tool 
which we are in the process of looking at implementing 
regulations in order to implement that could be used. I 
strongly believe in public-private partnerships in order to 
address our water challenges of the future.
    Senator Craig. I thank you both very much. Congratulations 
and we wish you speedy success here and speedy success in your 
short tenures in both of these very important agencies. Thank 
you both.
    Mr. Kupfer. Thank you.
    Ms. Onley. Thank you.
    Senator Craig. Mr. Chairman.
    The Chairman. Thank you. Ms. Onley, let me ask you a couple 
of questions. You did refer to and Senator Craig asked you 
again about this Water for America Initiative. I congratulate 
you on that and congratulate the Administration.
    As you're probably aware, I introduced a bill this last 
year called the Secure Water Act. It looks to me like there's a 
lot of similarity between the kinds of things you're trying to 
do with the Water for America Initiative and the legislation we 
introduced last year, which is good. I think that may give us 
the opportunity to work together with the Administration on 
getting a piece of legislation that the Administration would 
support in this area.
    I think I understood your earlier testimony to say that 
your view was we should proceed to legislate in this area. This 
should not just be left to Administrative action at this point. 
Is that right?
    Ms. Onley. Yes, and I should congratulate you on the Secure 
Water bill. We had a couple concerns I think we've expressed in 
testimony. But I know that our Commissioner has sent down to 
committee. We're working out those concerns and I'm confident 
that we can come to a bill that we could support.
    The Chairman. Ok. That's encouraging. I appreciate hearing 
that.
    Let me also just comment that I was glad to hear your 
statement about the importance of sound science. We've had as 
you know, not in the area of the Department of Interior that 
you're taking responsibility for, but more in the area of Fish 
and Wildlife, we've had various problems with former officials 
essentially exerting political influence or allowing political 
influence to be involved with scientific decisions. I think 
that's an allegation that was made, but I think there's also 
some fairly good evidence of it.
    So I'm glad to see your commitment to the importance of 
sound science. Obviously I think the U.S. Geological Survey 
needs to be preeminent among Federal agencies. I heard 
something on the radio this morning when I was coming to work 
about some announcement that the Geological Survey made.
    It reminded me of a comment that a friend of mine made to 
me many years ago. He asked me, he said, who's the most 
respected public official in New Mexico? That's when I was 
Attorney General and so I thought he was going to complement 
me.
    Senator Domenici. He did.
    The Chairman. He said the State epidemiologist. He said 
when the State epidemiologist speaks people do not question his 
motives or anything else. They assume, and rightly so, that 
he's giving his scientific judgment. I think the U.S. 
Geological Survey needs to maintain and guard that same kind of 
a reputation in the areas that they work in. So I give you that 
one comment.
    Senator Domenici. Who was the person who that made such an 
observation?
    The Chairman. Ken Richards. He's a friend of mine in Santa 
Fe, used to be in Santa Fe.
    Senator Domenici. Oh, you knew him too?
    The Chairman. Yes.
    Senator Domenici. Did you know the expert, the scientist? 
Did you know him too?
    The Chairman. No, no. I didn't know the State 
epidemiologist at the time. But I just--and he didn't either.
    Senator Domenici. That's very good.
    The Chairman. I thought the point was well taken though 
that there are some people in public service whose opinions are 
not suspect when they speak.
    Senator Domenici. I thought he was going to say me.
    The Chairman. No, he was not thinking of you, Senator. I 
regret to inform you.
    Senator Domenici. That's too bad. That fellow was really 
off base.
    [Laughter.]
    The Chairman. Yes, that's right. At any rate, I'll stop 
with that. But let me ask one other question of Mr. Kupfer 
since I have another minute here before our time runs out.
    Senator Domenici and some others here on the committee have 
posed the establishment of an energy bank, a new energy bank. 
As you know there's been a great deal of focus here about, in 
our committee, on this Loan Guarantee Program which already 
exists as a result of the legislation we passed in 2005. I 
guess I would be interested in any general thoughts you have as 
to what role the Department should play in helping finance new 
energy infrastructure. Is the Loan Guarantee Program properly 
implemented? What we ought to be doing or should we be looking 
at doing other things as well? What's your thought on that?
    Mr. Kupfer. In terms of what the Department should be 
doing, making sure that the Loan Guarantee Program is stood up 
properly and implemented, in terms of our current 
responsibilities, is the most important thing for us to be 
doing at this time. I think we're making very good progress. 
We've had one solicitation already and we've actually received 
some full applications from that solicitation.
    We're in the process of looking at the next implementation 
plan for putting out future solicitation. So I think we've made 
very good progress on the Loan Guarantee Program. I think it's 
very important for one of a kind type projects that are out 
there, for instance in the renewable energy space. Then also 
for projects that are just so mammoth that we need loan 
guarantees, like in the nuclear area.
    I'd also mention that in the 2005 Energy bill. In EPACT, 
Congress gave the Department some additional financing 
authorities, for instance other transactions authority in terms 
of entering into different types of arrangements with the 
private sector with which we have used already. We used them to 
give awards to some bio-refineries last year. One of which has 
already broken ground and we're making some progress there.
    So I think in terms of looking at innovative ways to deal 
with the private sector, that's very important. I do think it's 
important to keep the government's role in perspective that our 
job is not to finance the entire energy infrastructure that's 
out there, that we need to let the market work and to let the 
private sector get involved. We have seen the private sector 
stepping up to do so.
    But I do think the scale of energy infrastructure is sort 
of huge and will continue to be over the ensuing years. That 
looking at different creative options such as the Senator's 
Clean Energy Bank, is something that is very worthwhile for us 
to look at. We're in the process of doing that.
    So I think there's a balance there and that will continue 
to evolve over time.
    The Chairman. Senator Domenici.
    Senator Domenici. Thank you very much, Mr. Chairman. Again 
I want to thank you for expeditiously calling the hearing and 
for us getting our work done hopefully today.
    I want to say something before I get to brackish water and 
you, Ms. Onley about financing. Actually the entire success of 
America in getting the Energy Programs on board that help us 
solve the problem of dependence requires huge amounts of 
capital and equity. Frankly, people have tried to quantify how 
much. Of course that's pretty touch because you and I both know 
that depends upon on what the policy is going to be. But under 
any policy it's just gigantic how many billions if not 
trillions will be spent to try to play the catch up of 
America's dependence and moving in another direction or 
numerous directions.
    I, myself have become very frustrated with the Loan 
Guarantee Programs, not you, not yours. But just to try to get 
it started appropriately within the Federal Government. I can 
tell you that you, because you are intelligent and 
knowledgeable and you read title 17 of the Energy Act. It 
provided for all the mechanisms in the world that would be 
needed to do this financing.
    We did not have to go through what we were forced to do for 
loan guarantee authority. Loan guarantee authority is in title 
17, just as you said. You've come up with some financing 
mechanisms that are brand new for a couple of, whatever you 
mentioned. That's in there, but it isn't described 
specifically, it's described generally, as authority that we 
gave you.
    We did that on purpose because we knew the demand was going 
to be mammoth and all kinds of different instrumentalities--
instruments of lending. I am now convinced after talking to 
some experts, including some who work for you that no matter 
how hard you try, if you run these programs through the Federal 
Government it is a mess until maybe ten or twelve years have 
passed giving the bureaucracy sufficient time to mellow and 
arrange itself where it's part of the ballgame. That's happened 
to us.
    Every leaf you turned on loan guarantees, somebody, 
somewhere in the bureaucracy held these things up. They didn't 
do it intentionally. They weren't mad at anybody. They just did 
it.
    That's why it appeared to me that if I could convince my 
fellow Senators that that was apt to continue for maybe another 
decade with reference to the equity and capital needed in the 
transition and technology development that maybe a bank, much 
like import-export, etc. would be better. You could limit it 
however you wanted, how many billions or trillions. But it 
would be over with once it was there. People would go to that 
bank just like they do the one for foreign loans for foreign 
sales.
    So I had a specific reason. It may be too far fetched. But 
we will pursue it. We hope you will watch it carefully and give 
us information as we need it with reference to that.
    Mr. Kupfer. We will.
    Senator Domenici. I'm going to give you my questions for 
you to answer.
    I just want to talk with you a minute about brackish water 
and the research and say that Bureau of Rec. which is under 
you, has been very active in desalination in the State of New 
Mexico. There's a big brackish water pooled down by Alamogordo, 
New Mexico. It stretches quite a few miles and it's of 
different qualities of brackishness.
    We now have two or three efforts in that part of the State, 
some of which are yours, some are others, to get that brackish 
water understood and desalinated as best possible. There's a 
large building that's built at Holloman at, excuse me, at 
Alamogordo, New Mexico which I would like you to talk with your 
Bureau of Rec. people about. It's a laboratory to be used by 
researchers in the field of desalination or water quality. They 
can come there and rent a piece of the facility to do their 
research without having to bill their own facility.
    We would like to get Bureau of Rec.'s opinion soon as to 
how it ought to be managed. Should it be the Bureau and a 
school, like the New Mexico Tech or New Mexico State University 
or what? I think you're going to have to kind of be the movers 
on helping us decide how it's going to be run, maybe GE runs it 
with somebody. Would you do that?
    Ms. Onley. Yes.
    Senator Domenici. In due course?
    Ms. Onley. Yes.
    Senator Domenici. Alright. You'll have two questions that 
I'll submit. You can answer them in the next 48 hours and that 
will be all you will hear from me.
    Ms. Onley. Ok. Thank you, sir.
    The Chairman. Alright. Members will have until 5 p.m. 
tomorrow evening to file with the committee staff any 
additional questions that they would like to have answered for 
the record. I appreciate both of you being here and appreciate 
your testimony. The committee will stand in adjournment.
    [Whereupon, at 4:27 p.m. the hearing was adjourned.]
                                APPENDIX

                   Responses to Additional Questions

                              ----------                              

     Responses of Jeffrey Kupfer to Questions From Senator Cantwell
                environmental management cleanup funding
    Question 1. Mr. Kupfer, in early 2000, the Department of Energy 
asked for Congressional funding to accelerate cleanup at some of the 
smaller Department of Energy sites such as Rocky Flats, Colorado. 
Congress allocated this funding with the understanding that when the 
smaller sites were cleaned up, funding would be transferred to larger 
sites such as Hanford, Idaho Falls, and Oak Ridge. Following the 
accelerated cleanup at the smaller sites, we have seen a steady 
decrease in the EM budget for the past three fiscal years, directly 
impacting the Department of Energy's legal commitments at the larger 
sites.
    What will you do to help restore funding and meet the Department of 
Energy's commitments to clean up these legacy sites?
    Answer. As you are aware, the Department has had to make many 
difficult choices in recent years due to funding constraints. In 
planning our environmental cleanup efforts and developing the budget 
for those activities, the Department prioritizes work based on the 
greatest environmental benefit while mitigating risk to the largest 
extent practicable. In determining these priorities, the Department is 
working closely with federal and State regulators to evaluate needs and 
focus work on the highest environmental priorities at the DOE sites. 
Secretary Bodman has made it a high priority to pursue the necessary 
funding to support our cleanup responsibilities at Hanford and 
throughout the complex, and as Deputy Secretary I will also make this a 
high priority.
                  three hanford contract procurements
    Question 2. Mr. Kupfer, we have seen continuous contractor changes 
at many of the Department of Energy sites. Almost two years ago, the 
Department of Energy Office of Environmental Management decided to 
split two existing contracts at Hanford into three contracts. The 
requests for procurements for these three contracts were released for 
bid more than a year ago. The contracts have still not been awarded, 
and bidders were recently asked to extend their proposals to June. This 
has caused extreme unrest in the roughly 4,000 employees who will be 
affected by these new contracts.
    How can you help move these contracts forward to award?
    Answer. We are on schedule to make these three awards, for Tank 
Operations, Plateau Remediation, and Mission Support, in the fall of 
2008. All available resources are being utilized to bring the awards to 
closure. We are confident that we can meet, or beat, the current 
schedule. I am committed to ensuring that we do so.
                               b reactor
    Question 3. Mr. Kupfer, Clay Sell and other senior Department of 
Energy officials have strongly supported the preservation of B Reactor 
at Hanford as a National Historic Monument. B Reactor was the very 
first operating reactor in the world. It took only 11 months to build, 
including engineering, design, and construction. The leap from the 
first chain reaction under Stagg Stadium in Chicago, where gram 
quantities of plutonium were produced, to B Reactor, where ton 
quantities of plutonium were produced, is still an engineering and 
physics marvel.
    Will you commit to working with the Department of Interior to 
preserve B Reactor for public access?
    Answer. Yes. During a visit to Hanford I toured the B Reactor with 
Hanford site historian Michelle Gerber. Like many who have had the 
opportunity to tour the facility (and see Dr. Fermi's office), I came 
away impressed by its historical significance and recognize our 
responsibility to preserve it for future generations.
    As you know, the National Park Service is currently evaluating, in 
consultation with DOE, the feasibility of designating one or more 
Manhattan Project sites (including the B Reactor) as a unit of the 
National Park Service. The final report, scheduled for completion in 
summer 2009, should be forwarded to Congress by the Secretary of the 
Interior with the concurrence of the Secretary of Energy.
    In a separate action, B Reactor has also been nominated, and is 
under consideration, for National Historic Landmark status.
    Additionally, DOE's Office of History and Heritage Resources is 
developing an internal report evaluating management options for B 
Reactor, including the requirements needed to make the reactor 
available for public access. This internal report will be completed 
this summer.
    Moreover while the Department was awaiting final determination on 
each of these fronts, we determined it best to take action and to make 
our intentions known to the employees at Hanford and to the local 
community. In February, 2007 we issued a policy statement directing 
that:

  <bullet> B Reactor be maintained in a state that preserves its 
        historical significance while studies are ongoing and ultimate 
        disposition decisions are developed,
  <bullet> The Department assist the Secretary of the Interior's review 
        of the designation of B Reactor as a National Historic 
        Landmark, and
  <bullet> The Office of Environmental Management determines the 
        contractual modifications necessary for B Reactor to be managed 
        as a maintenance rather than a closure facility.

                                    

      

</pre></body></html>
